NO.
IN THE
SUPREME COURT OF THE UNITED STATES

CANDICE LUE,
Petitioner,
v.
JPMORGAN CHASE & CO., a Delaware Corporation; ALEX KHAVIN, an
individual; FIDELIA SHILLINGFORD, an individual; JOHN VEGA, an individual;
HELEN DUBOWY, an individual; PHILIPPE QUIX, an individual; THOMAS POZ,
an individual; CHRIS LIASIS, an individual; MICHELLE SULLIVAN, an
individual,
Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rides 29.5 and 29.5(c), I, Candice Lue, Pro Se
Petitioner certify that I served three (3) true and correct copies of the Petition for a
Writ of Certiorari via United States Postal Service Priority Mail on the abovenamed Respondents’ attorneys on July 17, 2019 as follows:
Messrs. Robert Whitman and Anshel Kaplan
Seyfarth Shaw LLP
620 Eighth Avenue
New York, New York 10018
(212) 218-5629/(212) 218-5271
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Candice Lue
Pro Se Petitioner

